<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                  APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements of those 
submitting written testimony are as follows:]

   Prepared Statement of the Center for Intercultural Education and 
                   Development, Georgetown University

    Mr. Chairman, ranking member Leahy and members of the subcommittee, 
I appreciate this opportunity to update you on the success of two 
programs which have been funded by the Agency for International 
Development over the years with this Subcommittee's support: the East 
Central European Scholarship Program (ECESP) and the Cooperative 
Association of States for Scholarships (CASS). As you are no doubt 
aware, these two programs were initiated by the Congress, and I am 
proud to say that they have fully measured up to the confidence members 
of the Senate have shown in them.
    I would also make the point that these two models, with appropriate 
adaptations, can effectively serve national policy objectives in the 
regions in which they currently operate as well as elsewhere. 
Instability such as that confronting Haiti, Venezuela and Colombia in 
this hemisphere and the challenges of establishing strong market 
economies and democratic institutions in the Central Asian republics of 
the former Soviet Union argue for U.S.-supported intensive training 
programs carefully tailored to economic development strategies and 
toward government and private sector institution building. These 
programs provide excellent opportunities at the same time to emphasize 
our democratic values. CASS and ECESP have the experience and record of 
success to help meet national objectives in these regions--and others--
without delay.
    Last fall, an opinion piece was published in The Washington Post 
entitled, ``Letting Fear Flourish.'' The article made the point that 
``Throughout the hemisphere, new leaders are promulgating a kind of 
rhetoric about U.S. imperialistic ambitions eerily reminiscent of Cold 
War conspiracy theories of a generation ago. The problem this time 
around is that Washington is doing little to improve its image in the 
region and to counter such notions and the fears they engender.'' The 
article goes on to reference ``. . . the Central American Peace 
Scholarship program, which brought thousands of economically 
disadvantaged students to junior colleges in the United States, . . . 
.'' CASS is the current embodiment of the highly successful Central 
American Peace Scholarship program. The article went on to note that 
``a new generation of nontraditional Latin American leaders rises--
leaders who have not experienced cultural and academic exchanges.'' 
While recent attention has focused on the importance of bolstering U.S. 
public diplomacy in the Arab and Muslim world, I would hasten to add 
that we should refocus attention as well on our neighbors to the South. 
Further, I offer up CASS as a ready-to-go approach to meeting this need 
and one with a proven track record.
    CASS and ECESP take somewhat different approaches and focus on 
different needs and populations, but they share common goals:
  --strengthening understanding of the United States and our values,
  --establishing effective government and non-profit institutions and 
        supporting free market development, and
  --building a well-educated middle class capable of providing 
        leadership in civic society critical to sustaining the economic 
        and political progress of nations facing tremendous challenges.
    The East Central European Scholarship Program (ECESP) trains 
professionals who can spearhead the processes of democratic, economic 
and social transformation of their societies. Community and government 
leaders, experts, administrators, managers, and educators in East 
Central Europe are provided with the knowledge and skill base to become 
leaders and agents of change. This is accomplished through a range of 
U.S.-based, in-country and regional training programs leading to 
certificates and, in some instances, degrees. Five goals define what 
ECESP has worked to achieve in the countries served:
  --more effective, responsive and accountable systems of local 
        government,
  --stronger institutions fostering democratic decision making and 
        civil society,
  --more efficient health and social service delivery systems,
  --support for sustainable economic development, and
  --approaches to education that is responsive to local needs in 
        changing environments.
    In the first 8 years of its existence, ECESP provided a dynamic 
long-term educational experience to approximately 700 participants from 
the Czech Republic, Hungary, Poland and Slovakia. Many of the ECESP-
trained individuals have contributed significantly to the 
transformation, both economically and politically, of those nations and 
their entry into the European Union. Since 1998, an additional 924 
participants have been trained from Albania, Bulgaria, Macedonia and 
Romania with another 72 participants prepared to start training in May 
and August this year. Again, those who have been trained from this 
second group of nations have been key players in the reform of their 
governmental and economic systems.
    ECESP alumni have returned home to careers in the public and 
private sectors, which have contributed, to the economic and social 
development of their countries. They have held high government 
positions and have entered the business world. One example is Arben 
Ahmetja of Albania who, after completing the ECESP program in public 
administration became Executive Director of H-Communications, the first 
private telecommunications company in Albania. The company is bringing 
for the first time phone service to rural areas of Albania. 
Subsequently, he has returned to public service as the Vice Minister 
for Energy and Industrial Development. In that capacity, he has focused 
on strategies to improve the utilization of natural resources, which is 
key to Albania's economic development strategy.
    ECESP funds are overwhelmingly expended in the United States, with 
86 percent committed at U.S. colleges and universities. Today, major 
ECESP programs operate at the University of Wisconsin-La Crosse and the 
University of Kentucky. The program is having the impact that was 
intended. In fact, the program has been a contributing factor to the 
``graduation'' of some countries out of USAID assistance programs. An 
evaluation funded by USAID found that ``[M]any [ECESP] returnees have 
taken on important policy roles, high positions in dimensions of public 
life, key positions in the growing private sector, and significant 
roles in advocacy and social improvement.'' It also noted ``[L]ong term 
(U.S. based training) appears to have a substantial impact on the 
attitude, vision and career path of participants.''
    We appreciate the fact that the Appropriations Committees recognize 
the potential of the ECESP approach and during last year's 
appropriations process encouraged USAID to expand ECESP so that it can 
serve the Central Asian republics of the former Soviet Union. While we 
have had initial conversations with USAID officials about means of 
following up on the recommendations accompanying the fiscal year 2004 
foreign operations appropriations, we have been advised that existing 
funds, which are managed by the missions for the region, are already 
obligated under large Indefinite Quantity Contracts of multi-year 
duration.
    Although secularism has prevailed in Central Asia, democracy has 
not taken root. Economic development is slow, unemployment rates are 
very high, youth is disaffected and looking to more radical solutions, 
and most Central Asian republics still face the daunting task of health 
reform. These factors continue to threaten the stability of this 
region. ECESP's expertise in building grass roots democracy and 
training for privatization and economic development, financial and 
banking reform, active labor market strategies, and health care reform 
can help alleviate the situation. Unfortunately, the concentration of 
training activities in the region under large Indefinite Quantity 
Contracts and the lack of additional resources in the proposed budget 
have made it impossible to follow up on the fiscal year 2004 
recommendations. We ask your help in addressing this situation.
    Clearly, there are a number of cultural and economic-sector 
differences between the Central Asian region and the areas where ECESP 
has functioned to date. Nevertheless, the experience we have had in 
being a successful partner in efforts to reshape political, social and 
economic realities in former Soviet bloc countries can bear on the 
challenges facing Central Asian republics. The experience of working in 
Albania, a country with no history of democracy and civil society 
development, is of particular relevance. Furthermore, Georgetown 
University is also home to two highly regarded National Resource 
Centers with expertise in this region. They can and have worked with 
CIED to ensure the necessary program adaptations and regional 
connections that will enable CIED to move quickly and effectively into 
this critical region.
    Georgetown's Center for Intercultural Education and Development is 
ready to work with you and USAID to continue the mission we have 
effectively served to date and to expand our services with 
modifications necessary to reflect the realities and needs of other 
nations.
    Whereas ECESP focuses on meeting the training needs of 
professionals, CASS provides training to disadvantaged students with 
demonstrated leadership qualities at U.S. educational institutions. 
Today, we partner with eighteen colleges, universities and community 
colleges in twelve states. The program provides technical training in 
agriculture, business, primary education, various industrial 
technologies, environmental sciences, and health care and infectious 
disease control. The training programs are carefully tailored to ensure 
that they also strengthen civic responsibility and leadership skills of 
participants. CASS has successfully served groups that historically 
have been overlooked in our foreign aid programs--women, ethnic 
minorities, the rural poor and individuals with disabilities. We are 
also extremely proud that the program includes the right mix of 
training and placement services to achieve a 98 percent rate of return 
to participants' home countries and a 92 percent alumni employment 
record. Alumni are working in fields that support private sector 
growth, humanitarian assistance and development objectives of their 
home countries. There are currently 417 CASS scholars in the United 
States and over 5,300 alumni contributing to the social and economic 
growth of their home countries.
    Nearly 90 percent of CASS funds are spent in U.S. communities. CASS 
students are involved in the life of the communities where they are 
hosted. Visiting students have tutored K-12 students in foreign 
languages, worked to fill and place sandbags to fight flooding along 
the Mississippi River, and regularly help on an array of other types of 
community service. On a number of the participating campuses, CASS 
students have been the only international presence.
    The U.S. host institutions provide a 25 percent local match to 
augment the AID funds. Providing the match is posing a serious 
challenge to some of the host institutions that have seen their state 
funding reduced in the face of state budgetary troubles. These partner 
institutions have proven highly effective in achieving the program's 
mission; hence, we are very concerned that the match requirement not 
result in schools not being able to continue their participation. This 
factor makes it particularly important that the participating 
institutions know that they can count on the CASS program continuing so 
that their campus investments continue to provide long-range benefits.
    As the Committee is aware, the CASS program is in its second year 
of a 5-year agreement with USAID. The new agreement includes new 
activities in Mexico in support of the Administration's efforts to 
strengthen the United States-Mexican relationship. Those new activities 
include the implementation of a regional strategy to foster growth 
through training and development. Economically disadvantaged Mexican 
youth will receive technical and leadership training at U.S. community 
colleges alongside North American students and CASS scholars from 
Central America and the Caribbean.
    To build on Mexico's strong regional development efforts, CASS is 
focusing on the less developed, marginalized populations of Mexico. 
Fields of study are selected for the potential they provide scholars to 
participate in opportunities created by export-driven economic growth, 
while ensuring environmental protection, through course work in 
agricultural production, industrial and information technologies, and 
industry-related environmental technologies.
    In 2003, CASS targeted recruitment in the states of San Luis 
Potosi, Queretaro and Guanajuato. In 2004, CASS expanded recruitment to 
include indigenous candidates from the states of Chiapas and Jalisco. 
Fields of study include Quality Control, Industrial Engineering 
Technology, Computer Information Technology, Agribusiness for Export, 
Food Technology, Telecommunications, and Strengthening Education for 
Indigenous Children. As members of the Subcommittee are well aware, in 
recent years Chiapas has experienced considerable political 
instability. The CASS training is part of a strategy to address 
underlying economic issues there.
    In addition, the Center for Intercultural Education and Development 
has worked with USAID outside the framework of our CASS agreement to 
develop a scholarship program aimed at bringing individuals from Cuba 
to the United States for training purposes. I think it is fair to say 
that USAID was interested in us managing this particular initiative 
because of the success of CASS in handling the training of populations 
that many aid programs do not reach. At this point, CIED has secured 
strong support from partner colleges slated to provide training and has 
20 scholars selected to begin training. However, in light of the 
current political environment vis-a-vis Cuba, the issuance of visas and 
other paperwork necessary for prospective students to leave Cuba have 
resulted in delays. The 20 scholars are poised to commence their 
studies in the United States as soon as these overarching issues are 
resolved.
    Finally with regard to CASS, I might add an observation regarding 
the current situation in Haiti and its impact on CASS alumni in the 
country and the 33 Haitian students currently studying in the United 
States. Sixteen Haitian students are preparing to return home this 
summer when they complete their 2-year training programs. When they do, 
CASS staff in Haiti will be there to receive them. CASS will provide 
them with a reentry seminar and job fair specifically geared to their 
particular employment skills. A network of successful alumni is also 
there to provide support to returning graduates, helping them in their 
readjustment to Haiti. Despite the difficult political situation in 
Haiti, CASS alumni are excelling and we are confident that, despite the 
unrest, these individuals will be successfully placed and contribute to 
the nation's economic well-being.
    I would like to cite the example of CASS alumnus Pierrot Marcel, 
who was born in Jeremie, an isolated town in the western end of Haiti, 
where services, supplies, and communication lines with urban centers 
are scarce. Children in Jeremie rarely finish secondary school and most 
everyone depends on menial jobs to survive. The average family income 
ranges from $90-$300 per year. Despite this, Pierrot was able to finish 
high school and in 1990 he was awarded a CASS scholarship.
    Upon returning to Haiti, he secured employment with the Fondation 
Haitienne de Developpement. Later he was hired as a local consultant by 
USAID, which he saw as ``an opportunity to pay back the U.S. Government 
for (his) scholarship.'' He worked the following 5 years with CARE 
International training farmers in marketing, management and food 
processing techniques. He taught them how to increase their income by 
adding value to their products such as processing raw cassava into 
cassava flour and cassava bread and shipping the final product to 
supermarkets as far away as Port-au-Prince. Pierrot has also helped 
connect cacao farmers with the Hershey chocolate plant in the United 
States.
    Pierrot Marcel is currently the Manager of the Jeremie Station for 
Tropical Airways d'Haiti S.A. and supervises all flights to his 
hometown. In addition, he founded the ``Grande Anse 2009'' school 
which, to date, has trained about 480 people in computer skills, 
employs nine people and has been accredited by the Haiti Ministry of 
Education. On a personal level, Pierrot has financed the education of 
each of his younger brothers.
    Over 500 Haitians have joined Pierrot Marcel in making the most of 
their CASS opportunity, which as a result has impacted their lives and 
those of countless others. Additional support specifically targeted for 
Haiti would enable CASS to develop a construction-training program for 
Haitians similar to the successful reconstruction initiatives CASS 
launched after Hurricane Mitch in Central America. Likewise, CASS could 
quickly implement expanded training in the field of agriculture, which 
is central to the Haitian economy. Such programs could play a critical 
role in developing a strong workforce capable of handling 
infrastructure repairs and revitalizing Haitian agriculture both of 
which are essential to putting the Haitian economy back on track while 
fostering political stability.
    At this critical juncture, both in terms of the nation's foreign 
policy priorities and with regard to defining the future of these two 
programs, we request your continued support in this year's 
appropriations process.
    Thank you.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    The Nature Conservancy (TNC) urges the Committee to continue its 
strong tradition of support to international conservation by 
appropriating, in fiscal year 2005, $175 million for conservation of 
biodiversity within the Development Assistance account of the Agency 
for International Development (AID), enough to begin addressing 
critical funding gaps; $178 million for the Global Environment facility 
(GEF), enough to allow for full payment of the U.S. pledge and progress 
toward payment of accumulated arrears; $30 million for the Tropical 
Forest Conservation Act (TFCA), a debt-for-forest program that 
leverages taxpayers' funds with private donations from groups like the 
Conservancy; and $8.4 million for international conservation programs 
within the International Organizations and Programs (IO&P) account at 
the Department of State.
    The mission of The Nature Conservancy is to preserve the plants, 
animals, and natural communities that represent the diversity of life 
on Earth, by protecting the lands and waters they need to survive. Our 
work in the United States and abroad is closely related. For example, 
it is not possible to protect migratory birds in their summer ranges, 
inside the United States, without also taking care of their winter 
ranges in Latin America and the Caribbean. More broadly, a healthy 
natural environment is a key element in genuinely sustainable economic 
and social development around the world. Too often, short-term 
considerations drive bad choices, whose results can be catastrophic for 
both the natural world and for the people who live with and by means of 
that world. When a tropical rain forest is destroyed the people, who 
live in and depend upon that forest, often go extinct nearly as fast as 
the animals.
    In our work outside the United States, we support local 
conservation groups that work to raise the effective level of 
protection at parks and nature preserves established by the local 
governments. We work with local communities to increase the 
constituency for conservation. We support sustainable development 
projects to improve the productivity and standard of living of rural 
people living in and near protected areas. We work cooperatively with 
landowners to promote conservation on private lands. We are a private, 
non-profit organization. Our recent private capital fund campaign 
raised more than $1 billion. One hundred twenty million dollars will be 
for our work outside the United States. About 83 percent of our 
operating budget is raised from non-governmental sources, but 
government grants fill a critical need. For example, the assistance we 
receive through our cooperative relationship with AID is vital to our 
international operations. It is difficult to raise private dollars for 
international operating (as distinct from capital) expenses. Without 
AID's support, these programs would be severely damaged.
    Our Parks in Peril (PiP) program in Latin America and the Caribbean 
and our similar efforts in the Asia/Pacific region are widely regarded 
as among the most successful and respected in the world. Our 
conservation work helps bring real protection to more than sixty major 
``sites''--parks and nature preserves in 27 foreign countries, 
comprising over 80 million acres, while also generating economic 
benefits to communities and individuals. In a typical recent year, AID 
has supported PiP with about $6 million. The leverage on the U.S. 
Government's investment in PiP is very high--more than $300 million 
raised by us and by our local partners for conservation work at or near 
the PiP sites. We have signed a new 5-year agreement for Parks in 
Peril, under which we will leverage its proven methodology to many more 
places through at least 2006. Your Committee has praised Parks in Peril 
in its past reports, and we hope you will do so again.
    We are also grateful for AID's support to our other international 
projects, especially through the Global Conservation Program (GCP) and 
through the President's Initiative Against Illegal Logging. The GCP, 
for example, helps support our work on the coral reef that surrounds 
Komodo Island in Indonesia: for park rangers, marine patrol boats to 
enforce the ban on destructive fishing, and alternative development 
projects for local people.
    AID's support to biodiversity is by far the largest portion of all 
U.S. Government funding to international conservation: $155 million in 
fiscal year 2004. Your Committee has long supported AID's biodiversity 
work. We recognize the need for priorities at this moment of 
international crises. But, in view of the critical needs for survival 
of the world's natural heritage and the strong contribution that a 
healthy environment makes to social and political peace, we urge the 
Committee to raise overall grants to environmental work by AID. The 
Nature Conservancy as part of an alliance of conservation groups urges 
that AID's biodiversity funding (part of its environmental line item) 
for fiscal year 2005 be increased by $20 million to $175 million. Even 
after such an increase, the AID environmental share of the $21.3 
billion Foreign Operations total will remain small--barely 1 percent. 
Should an increase for biodiversity prove impossible despite your best 
efforts, we strongly urge the Committee to provide clear legislative 
guidance that AID's actual investment in conservation of global 
biodiversity should at the least not decline, and that only in situ 
conservation should count against the congressionally mandated level.
    The Tropical Forest Conservation Act (TFCA), known as the Portman 
Act, is also funded within Foreign Operations. The Administration has 
requested $20 million for fiscal year 2005 in the Treasury account, the 
same as in fiscal year 2004. We strongly support this request, and 
recommend that if possible it be increased to $30 million. If more 
funds were available, the TFCA could certainly put them to prompt and 
good use. The TFCA uses debt reduction deals to create long-term income 
streams to protect forests. The Conservancy donated more than $1 
million each to the TFCA deal with Belize and Panama, and over $400,000 
each to the deals with Peru and Colombia. These debt-for-forest deals 
leverage the U.S. taxpayers' dollar: typically, there is about $2 of 
conservation benefit for each $1 of appropriated funds. If TFCA gets 
$20 million, it will be possible to do several deals beyond Colombia, 
including such countries as Jamaica, Ecuador, Guatemala, and Paraguay. 
TNC stands willing to donate additional private funds in each case. If 
TFCA receives $30 million, the size of the deals could be increased and 
additional countries could participate.
    The Global Environment Facility (GEF) is the largest single source 
of environmental funds (including conservation) in the world, 
leveraging U.S. Government contributions four-to-one. The 
Administration's request level for fiscal year 2005 is $121 million, 
down significantly from the $138 million and $147 million appropriated 
in the last 2 years. This fiscal year 2005 level of funding would be 
barely adequate to meet the U.S. pledge level, and would allow 
virtually no progress toward paying the U.S. arrears. We urge the 
Committee to fund the GEF at $178 million, enough to meet the 
Administration's original goal of clearing all arrears within 3 or 4 
years.
    TNC appreciates the opportunity to submit this testimony for the 
record, and in closing suggests the following Committee report language 
regarding biodiversity, Parks in Peril, and the Tropical Forest 
Conservation Act.
    Draft Report Language:

                AID'S SUPPORT TO CONSERVING BIODIVERSITY

    The Committee has repeatedly urged that AID make biodiversity 
conservation a high priority. The Committee directs that $175 million 
shall be made available for programs and activities that directly 
protect biodiversity in developing countries. The Committee further 
directs that, in meeting this goal, AID shall count only programs that 
help in situ protection of native wild animals and plants.

                             PARKS IN PERIL

    The Committee strongly reiterates its continued support for the AID 
Parks in Peril (PiP) program, a partnership with the Nature Conservancy 
to promote biodiversity conservation in imperiled ecosystems throughout 
Latin America and the Caribbean.

                TROPICAL FOREST CONSERVATION ACT (TFCA)

    The Committee strongly supports this program, which brings 
``leverage'' to forest conservation. Under TFCA debt deals, the amount 
directed to forest conservation is always substantially more than the 
U.S. appropriated funds. The Committee directs that, of the amount 
appropriated, up to $1 million may be used for costs of U.S. federal 
agencies to administer the program.

                                    The Nature Conservancy,
                                        Lexington, KY, May 5, 2004.
Attn: Brytt Brooks,

Office of Senator Mitch McConnell, Subcommittee on Foreign Operations, 
        Senate Committee on Appropriations, Washington, DC.
     Dear Senator McConnell: On behalf of the Kentucky Chapter of The 
Nature Conservancy I wanted to offer our support for the fiscal year 
2005 budget of the Agency for International Development (AID) and other 
programs that conserve biological diversity in developing countries.
    Our international programs and those of dozens of conservation 
organizations globally, benefit from AID support. Parks in Peril is a 
successful, multi-year Nature Conservancy effort that benefits from 
important AID help. I urge your committee to again put language 
strongly supportive of AID biodiversity conservation work and of Parks 
in peril in the report.
    We support more AID biodiversity money for the Tropical Forest 
Conservation Act, up from $20 million to $30 million if possible. We 
also support the international program of the U.S. Forest Service. 
While they are appropriated in Interior, not Foreign Operations, they 
do work on the Mexico side of the San Pedro and we are supporting an 
increase from $6 to $8 million.
    Thank you for your past support. Please fell free to call me at 
859-259-9655.
            Sincerely yours,
                                          James R. Aldrich,
                                     Vice President/State Director.
                                 ______
                                 
               Prepared Statement of Rotary International

    Chairman McConnell, Senator Leahy, members of the Subcommittee, 
Rotary International appreciates this opportunity to submit testimony 
in support of the polio eradication activities of the U.S. Agency for 
International Development (USAID). The effort to eradicate polio has 
been likened to a race--a race to reach the last child. This race 
requires the dedication to make the sacrifices necessary to achieve 
success. Like some great relay team, the major partners in the global 
polio eradication effort have joined with national governments around 
the world in an unprecedented demonstration of commitment to cross the 
finish line of this historic public health goal. We cannot allow the 
great distance we have traveled to diminish our resolve. Though we may 
be weary, our adversary is weakening. The victory over polio is closer 
than ever!!
    I would like to take this opportunity to thank you Chairman 
McConnell, Senator Leahy and members of the Subcommittee for your 
tremendous commitment to this effort. Without your support of USAID's 
polio eradication activities, the battle against polio would be 
impossible. We appreciate the long-term investment you have made 
through USAID to strengthen the basic health care infrastructure of 
many polio-endemic countries. This solid infrastructure has provided 
the foundation on which the polio eradication program has succeeded. 
Additional support of the polio eradication program further strengthens 
this infrastructure because it gives confidence to the health care 
workers, provides dramatic assistance to families who no longer suffer 
the ravages of polio, and provides hope that other diseases can also be 
eliminated.

           PROGRESS IN THE GLOBAL PROGRAM TO ERADICATE POLIO

    Thanks to your leadership in appropriating funds, the international 
effort to eradicate polio has made tremendous progress.
  --The number of polio cases has fallen from an estimated 350,000 in 
        1988 to less than 800 in 2003--a more than 99 percent decline 
        in reported cases (see Exhibit A). More than 200 countries and 
        territories are polio-free, including 4 of the 5 most populous 
        countries in the world (China, United States, Indonesia, and 
        Brazil).
  --Transmission of the poliovirus has never been more geographically 
        confined. The Western Hemisphere, the Western Pacific and the 
        European regions have been certified polio-free and wild 
        poliovirus transmission is confined to a limited number of 
        polio ``hot-spots'' within six countries.
  --More than 2 billion children worldwide have been immunized during 
        NIDs in the last 5 years, including more than 150 million in a 
        single day in India.
  --All polio-endemic countries in the world have conducted NIDs and 
        established high quality surveillance of Acute Flaccid 
        Paralysis (AFP). The eradication of polio in the Democratic 
        Republic of Congo, Sudan, and Somalia shows that polio 
        eradication strategies are successful even in countries 
        affected by civil unrest.
    From the launch of the global initiative in 1988, to the 
eradication target date of 2005, 5 million people who would otherwise 
have been paralyzed will be walking because they have been immunized 
against polio. Tens of thousands of public health workers have been 
trained to investigate cases of acute flaccid paralysis and manage 
massive immunization programs. Cold chain, transport and communications 
systems for immunization have been strengthened. A network of 147 polio 
laboratories has been established to analyze suspected cases of polio 
and monitor transmission of polio. This network will continue to 
support the surveillance of other diseases long after polio has been 
eradicated.
    Give the tremendous progress that has been made in reducing the 
incidence of polio and diminishing the areas in which the virus 
circulates, the world currently faces an unprecedented opportunity to 
stop the transmission of wild poliovirus. However, significant 
challenges remain as obstacles to the ultimate achievement of our goal 
of a polio-free world. In 2003, Nigeria surpassed India to become the 
country with the highest number of polio cases. The surge in polio 
cases in Nigeria also resulted in importations of cases into several of 
the countries that neighbor Nigeria. The risk of importations into west 
and central African countries, and around the world, is magnified by 
financial constraints that limit the scope of immunization activities.
    Continued political commitment is essential in all polio endemic 
countries, to support the acceleration of eradication activities. The 
ongoing support of donor countries is essential to assure the necessary 
human and financial resources are made available to polio-endemic 
countries. Access to children is needed, particularly in Nigeria, where 
political and financial differences between key states and the federal 
government were unexpectedly given voice in the form of untrue rumors 
about the safety of the oral polio vaccine. As a result, immunization 
activities in the states that need them most were delayed and/or 
suspended during the effort to address local concerns. Polio-free 
countries must maintain high levels of routine polio immunization and 
surveillance. The continued leadership of the United States is critical 
to ensure we meet these challenges.

                    THE ROLE OF ROTARY INTERNATIONAL

    Since 1985, Rotary International, a global association of more than 
30,000 Rotary clubs, with a membership of over 1.2 million business and 
professional leaders in 166 countries, has been committed to battling 
this crippling disease. In the United States today there are nearly 
7,700 Rotary clubs with some 400,000 members. All of our clubs work to 
promote humanitarian service, high ethical standards in all vocations, 
and international understanding. Rotary International stands hand-in-
hand with the United States Government and governments around the world 
to fight polio through local volunteer support of National Immunization 
Days, raising awareness about polio eradication, and providing 
financial support for the initiative. In 2003, members of Rotary clubs 
around the world announced the results of their second polio 
eradication fundraising campaign. Rotarians far exceeded the U.S. $80 
million goal they had set by raising U.S. $119 million in cash and 
commitments. Rotary firmly believes that the vision of a world without 
polio can be realized and that the time for action is now. By the time 
the world is certified polio-free, Rotary's contribution to the global 
polio eradication effort will exceed U.S. $600 million.
    Rotary International's commitment to the global polio eradication 
represents the largest contribution by an international service 
organization to a public health initiative ever. These funds have been 
allocated for polio vaccine, operational costs, laboratory 
surveillance, cold chain, training and social mobilization in 122 
countries. More importantly, tens of thousands of Rotarians have been 
mobilized to work together with their national ministries of health, 
UNICEF and WHO, and with health providers at the grassroots level in 
thousands of communities.
    In the United States, Rotary has formed and leads the United States 
Coalition for the Eradication of Polio, a group of committed child 
health advocates that includes Rotary, the March of Dimes Birth Defects 
Foundation, the American Academy of Pediatrics, the Task Force for 
Child Survival and Development, the United Nations Foundation, and the 
U.S. Fund for UNICEF. These organizations join us in expressing our 
gratitude to you for your staunch support of the international program 
to eradicate polio. For fiscal year 2004, you appropriated a total of 
$27.5 million for the polio eradication efforts of USAID. This 
investment has helped to make the United States the leader among donor 
nations in the drive to eradicate this crippling disease.

                    FISCAL YEAR 2005 BUDGET REQUEST

    For fiscal year 2005, we are requesting that your Subcommittee 
specify $30 million for global polio eradication in USAID's budget. 
These funds will support USAID's delivery of vaccine and the 
development of the infrastructure necessary to maintain its Polio 
Eradication Initiative. This would represent a funding increase of $2.5 
million from the fiscal year 2004 level. This funding level will 
provide much-needed stability to the program and ensure that the United 
States remains a leader in the global polio eradication effort. In 
addition, we are seeking report language specifying that this funding 
is provided specifically to combat polio. It is important to meet this 
level of funding due to the increased costs of the accelerated 
eradication program, and to respond to the increase in supplementary 
immunization activities in endemic countries, the need to maintain 
immunity in polio-free areas and maintain certification standard 
surveillance.

   THE ROLE OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT (USAID)

    In April 1996, with the support of the 104th Congress and in 
response to the strong urging of your Subcommittee, USAID launched its 
own Polio Eradication Initiative to coordinate agency-wide efforts to 
help eradicate polio. Over the subsequent 4 years, despite decreases in 
the overall Child Survival budget, Congress directed that $25 million 
be allocated to USAID's international polio eradication efforts. In 
fiscal year 2001, Congress increased this allocation to $27.5 million--
an amount that was maintained since that time. Some of USAID's 
achievements in the past, and their planned Polio Eradication 
Initiative activities in 2004, include:
    Increased National Activities Throughout Africa.--USAID-supported 
synchronized multi-country national immunization days in 20 West and 
Central African countries reached more than 96 million children in 2001 
and 2002. In 2002, Sao Tome and Principe joined the group of West 
African counties that synchronized NIDs. Subnational immunization days 
targeting children under age 5 were conducted mainly in countries of 
East and Southern Africa. In East Africa, five countries participated 
in coordinated cross-border activities. Border districts in Djibouti, 
Ethiopia, Sudan, Kenya, and Somalia shared data about wild poliovirus 
and surveillance indicators. These activities will continue and expand 
during 2003.
    Intensified Efforts in South East Asia.--WHO's South East Asia 
region accounted for more than 80 percent of the global total of polio 
cases in 2002. Across the region, USAID grants to WHO, UNICEF, and the 
International Clinical Epidemiology Network supported immunization 
programs, NIDs, and follow-up campaigns. USAID support for these 
partners also strengthened planning, surveillance, laboratory, 
training, social mobilization, and information collection activities. 
USAID also supported country-specific activities in Bangladesh, India, 
Indonesia, and Nepal.
    PVO and NGO Collaborations.--In India, private voluntary 
organizations (PVOs) belonging to USAID's Child Survival and Resources 
Collaboration (CORE) Group helped the vaccination program in Uttar 
Pradesh state reach high-risk Muslim families. At the request of the 
Ministry of Health, the PVOs and their local partners provided support 
for social mobilization and marshalling volunteers to counsel Muslim 
families who were resisting immunizations for their children. In 
Calcutta, a nongovernmental organization (NGO) that partners with a 
CORE PVO was asked to cover slum wards because of its outstanding 
record of service. Because of the high-quality work performed by the 
NGO's volunteers, the health department assigned them the task of 
cross-checking for missed children during follow-up efforts. CORE NGOs 
are tackling the most difficult to reach populations in Nepal, Angola 
and Ethiopia in addition to India. Hundreds of thousands of children 
who had never been immunized against polio were located and vaccinated 
due to the diligence of CORE volunteers. All CORE members have 
identified AFP cases and participate on national interagency 
coordinating committees.
    Global Contributions.--USAID supported the certification commission 
in the European region, provides funds for accreditation and operations 
of the global laboratory network, intensified efforts in Afghanistan 
and Pakistan, and continued its role in polio communication through VOA 
and UNICEF. Working in collaboration with WHO USAID has developed 
guidelines for validating polio containment activities. USAID staff at 
all levels are actively engaged in planning, monitoring and evaluating 
activities and serve as observers during NIDs.

                  OTHER BENEFITS OF POLIO ERADICATION

    Increased political and financial support for childhood 
immunization has many documented long-term benefits. Polio eradication 
is helping countries to develop public health and disease surveillance 
systems useful in the control of other vaccine-preventable infectious 
diseases. Already all 47 countries of the Americas are free of 
indigenous measles, due in part to improvements in the public health 
infrastructure implemented during the war on polio. The disease 
surveillance system--the network of laboratories and trained personnel 
established during the Polio Eradication Initiative--is now being used 
to track measles, rubella, yellow fever, meningitis, and other deadly 
infectious diseases. NIDs for polio have been used as an opportunity to 
give children essential vitamin A, which, like polio, is administered 
orally, saving the lives of 1.25 million children since 1998. The 
campaign to eliminate polio from communities has led to an increased 
public awareness of the benefits of immunization, creating a ``culture 
of immunization'' and resulting in increased usage of primary health 
care and higher immunization rates for other vaccines. It has improved 
public health communications and taught nations important lessons about 
vaccine storage and distribution, and the logistics of organizing 
nation-wide health programs. Additionally, the unprecedented 
cooperation between the public and private sectors serves as a model 
for other public health initiatives. Polio eradication is a cost-
effective public health investment, as its benefits accrue forever.

        RESOURCES NEEDED TO FINISH THE JOB OF POLIO ERADICATION

    The World Health Organization estimates that $765 million is needed 
from donors for the period 2004-2005 to help polio-endemic countries 
complete the polio eradication strategy. In the Americas, some 80 
percent of the cost of polio eradication efforts was borne by the 
national governments themselves. However, as the battle against polio 
is taken to the poorest, least-developed nations on earth, and those in 
the midst of civil conflict, many of the remaining polio-endemic 
nations can contribute only a small percentage of the needed funds. In 
some countries, up to 100 percent of the NID and other polio 
eradication costs must be met by external donor sources. We ask the 
United States to continue its financial leadership in order to see this 
initiative to its successful conclusion as quickly as possible.
    The United States' commitment to polio eradication has stimulated 
other countries to increase their support. Other countries that have 
followed America's lead and made special grants for the global Polio 
Eradication Initiative include the United Kingdom ($425 million), the 
Netherlands ($112 million), and Canada ($85 million). Japan, which has 
contributed $231 million, recently expanded its support to polio 
eradication efforts in Africa. Even the tiny country of Luxembourg has 
invested in global polio eradication by contributing $4.2 million. In 
both 2002 and 2003 the members of the G8 committed to provide 
sufficient resources to eradicate polio as part of its Africa Action 
Plan. In addition to the ongoing contributions made by historic donors 
such as United States, the United Kingdom, and Canada, new commitments 
of $37 million and $4 million were made by France and Russia in 
response to the G8 pledge.
    Intense political commitment on the part of endemic nations is also 
essential to ensuring polio eradication is achieved. In January 2004, 
health ministers of the six remaining endemic countries (Afghanistan, 
Egypt, India, Niger, Nigeria, and Pakistan) gathered at a meeting 
convened at WHO in Geneva to declare their commitment to supporting 
intensified supplementary immunization activities in the ``Geneva 
Declaration for the Eradication of Poliomyelitis.'' In addition, 
resolutions supporting polio eradication were taken by the African 
Union and the Organization of the Islamic Conference. Each of these 
resolutions encourages member states to place a high priority on 
completing the job of polio eradication.
    Your discipline, commitment and endurance have brought us to the 
brink of victory in the great race against this ancient scourge. Polio 
cripples and kills. It deprives our children of the capacity to run, 
walk and play. Other great health crises loom on the horizon. Your 
continued support for this initiative helps ensure that today's 
children possess the strength and vitality to grow up and fight against 
the health threats of future generations. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
